<html>
<title> - TRANSFORMING FEDERAL SPENDING: IMPLE- MENTING THE DIGITAL ACCOUNTABILITY AND TRANSPARENCY ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


 
                  TRANSFORMING FEDERAL SPENDING: IMPLE-
                   MENTING THE DIGITAL ACCOUNTABILITY AND 
                   TRANSPARENCY ACT

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 3, 2014

                               __________

                           Serial No. 113-161

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      

                               ____________
                               
                               
                     U.S. GOVERNMENT PUBLISHING OFFICE
93-835 PDF                WASHINGTON : 2015                     
                   
_______________________________________________________________________________________                      
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="83e4f3ecc3e0f6f0f7ebe6eff3ade0eceead">[email&#160;protected]</a>  
                     
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 3, 2014.................................     1

                               WITNESSES

The Hon.Mark Warner, a U.S. Senator from the State of Virginia
    Oral Statement...............................................     6
The Hon. Rob Portman, a U.S. Senator from the State of Ohio
    Oral Statement...............................................     9
The Hon. Gene L. Dodaro, Comptroller General of the U.S., U.S. 
  Government Accontability Office
    Oral Statement...............................................    13
    Written Statement............................................    15
The Hon. David Mader, Controller, Office of Federal Financial 
  Management, White House Office of Management and Budget
    Oral Statement...............................................    44
    Written Statement............................................    46
Mr. David Lebryk, Fiscal Assistant Secretary, U.S. Department of 
  the Treasury
    Oral Statement...............................................    52
    Written Statement............................................    55

                                APPENDIX

Dec. 2, 2014 letter from AICPA, submitted by Mr. Issa............    84
Letter from Ann Ebberts, Chief Executive Officer, AGA to Mr. Issa 
  and Mr. Cummings...............................................    88


TRANSFORMING FEDERAL SPENDING: IMPLEMENTING THE DIGITAL ACCOUNTABILITY 
                          AND TRANSPARENCY ACT

                              ----------                              


                      Wednesday, December 3, 2014

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                            Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m., in 
room 2154, Rayburn House Office Building, Hon. Darrell E. Issa 
(chairman of the committee) presiding.
    Present: Representatives Issa, Jordan, Chaffetz, Walberg, 
Lankford, Amash, Meehan, DesJarlais, Gowdy, Farenthold, 
Woodall, Massie, Meadows, DeSantis, Cummings, Maloney, Norton, 
Tierney, Lynch, Connolly, Speier, Kelly, Davis and Grisham.
    Staff present: Ali Ahmad, Professional Staff Member; Will 
L. Boyington, Deputy Press Secretary; Molly Boyl, Deputy 
General Counsel and Parliamentarian; Lawrence J. Brady, Staff 
Director; Adam P. Fromm, Director of Member Services and 
Committee Operations; Linda Good, Chief Clerk; Mark D. Marin, 
Deputy Staff Director for Oversight; Katy Rother, Counsel; 
Laura L. Rush, Deputy Chief Counsel; Jessica Seale, Digital 
Director; Andrew Shult, Deputy Digital Director; Katy 
Summerlin, Press Assistant; Sarah Vance, Assistant Clerk; Peter 
Warren, Legislative Policy Director; Rebecca Watkins, 
Communications Director; Meghan Berroya, Minority Chief 
Investigative Counsel; Krista Boyd, Minority Deputy Director of 
Legislation/Counsel; Aryele Bradford, Minority Press Secretary; 
Kelly Chryst, Minority Counsel; Jennifer Hoffman, Minority 
Communication Director; Elisa LaNier, Minority Director of 
Operations; Juan McCullum, Minority Clerk; and Dave Rapallo, 
Minority Staff Director.
    Chairman Issa. The committee will come to order.
    The Oversight Committee exists to secure two fundamental 
principles. First, Americans have a right to know that the 
money Washington takes from them is well spent, and second, 
Americans deserve an efficient, effective government that works 
for them. Our duty on the Government Reform Committee is to 
protect these rights. Our solemn responsibility is to hold 
government accountable to taxpayers because taxpayers have a 
right to know what they get from their government.
    It is our job to work tirelessly in partnership with 
citizen watchdogs, the general accountability office, the 
inspector generals, and others to help bring genuine reform to 
the Federal bureaucracy. This is our mission, this is our 
passion, and this is why today we are celebrating that over the 
past 4 years, on a bipartisan basis, the committee's majority 
and minority have taken up and moved several bills designed to 
reform government.
    Without a doubt, one of the most important transparency 
reform initiatives done by this committee has been the DATA 
Act. The DATA Act is the first shot in what should be a 
technological revolution that will transform how we govern. 
Shortly before we sent the DATA Act to the President for his 
signature in May, the GAO comptroller general Gene Dodaro came 
before this committee and testified that the status of Federal 
program data is abysmal. Agencies have no standardized 
performance metrics for programs. Agencies cannot tell us how 
many programs they even have.
    But most importantly, agencies do not and usually cannot 
tell us or know themselves how much taxpayer money has been 
spent or given to a particular program. Spending information 
that has been provided has been historically incomplete, out of 
date, and most often inaccurate. We in the transparency world 
recognize that you have a right to know, that the American 
people have a right to know, that your leaders in Congress have 
a right to know, but what we are talking about with the DATA 
Act is management within the executive branch has the greatest 
single need to know, and if they can't tell us, that means they 
can't be told for their management purposes.
    Today we are joined by the comptroller general who again 
will discuss his initial work on DATA Act implementation and 
update us on the status of problems DATA is designed to 
address. The American people deserve to know if Federal 
taxpayers are being wasted, or being wisely spent, but the 
performance information collected today is almost useless 
because we cannot determine the amount of resources a program 
actually consumes.
    There is an expression that is not used in government but 
it is used in business, and Senator Warner, who joins us today, 
very well knows this. You must be able to count if you are able 
to manage. The absence of the ability to count performance is 
the absence of ability to receive performance. This is true in 
a sales force. This is true in every single individual that 
works for a company. People want to be evaluated not based on 
somebody's opinion but based on facts. Performance data is 
essential in good management both in the private sector and in 
government.
    To better oversee the Federal Government, Congress and the 
President have appointees that must be able to better leverage 
technology, particularly appointees of a president who come in 
and stay for 2 to 4, maybe up to 8 years, come in from the 
outside world where they are used to knowing and getting 
worthwhile data. They are usually shocked that they ask career 
professionals for answers and the career professionals give 
them answers based on years of experience but not based on 
quantitative and measurable data. The DATA Act is possibly 
going to change that if it is properly implemented.
    By compelling agencies to report their financial 
information in standard formats, the policymakers in Congress 
and in the executive branch will have the information necessary 
to truly make informed decisions. More importantly, we can give 
the American people better information to evaluate the 
Government's performance for them.
    The bill directs the Department of Treasury and the White 
House office of management and budgets to establish these data 
standards and otherwise implement the law. Today we are joined 
by senior officials from both agencies charged with the 
implementation of the DATA Act. Under the Act, Treasury 
Department is authorized to establish a cutting edge data 
analysis center modeled on the successful recovery operation 
center better known as the ROC. The DATA Act calls on Treasury 
to build on innovative technology and ideas, the ROC that were 
used in the ROC, and extend its applications to spending across 
the Federal Government.
    The DATA Act specifically provides for the transfer of 
technology currently in place at the ROC. If Treasury acts to 
establish the new data analysis center, it will be a vital tool 
of law enforcement agency and the inspector generals in their 
investigations. The center will also help agencies protect 
against improper payments.
    Today we will hear from Treasury Department officials about 
the progress in establishing the center. We also expect to hear 
from OMB about progress made toward establishing a pilot 
program to develop consolidated reporting for receipts and 
Federal funds.
    Hundreds of billions of Federal taxpayer dollars are spent 
by State, local, and tribal governments, universities, and 
private institutions every year. Today these entities may well 
and often do waste millions of taxpayer dollars complying with 
duplicate and complicated reporting requirements. In a modern 
era, there is no reason for an entity to fill in mindless forms 
with the same information time and time again.
    At the end of the 2-year pilot under which some recipients 
report to a single entity in a standardized manner, the 
director of OMB will issue guidance to all Federal agencies on 
how to streamline and consolidate reporting requirements. When 
fully implemented, consolidated financial reporting by agencies 
and other recipients will give unprecedented insight into 
Federal spending.
    The American people will finally be able to track how we 
spend their dollars. By simply opening up the information, 
journalists, academics, and citizen watchdogs will be able to 
create tools that help the American people understand where 
their taxpayer dollars are going.
    But we also know the transparency is not the only benefit 
of an open Federal DATA Act. Private sector businesses will 
have the opportunity to utilize data to create products and 
services to deliver real value to the American people. Our 
efforts have not been--have been not only bipartisan but 
bicameral. Our partners in the Senate, Senator Mark Warner of 
Virginia and Senator Rob Portman of Ohio who are with us today 
have shown amazing leadership, and in fact, the bill signed by 
the President was authored by Senator Warner.
    They join us here today for a few remarks, and I am pleased 
to welcome them, and at this time I am pleased to recognize my 
ranking member with just one caveat. I want to take a moment to 
look at Gerry Connolly and say something.
    Gerry, you have often been the bane of my existence, but 
when it comes to your leadership in this and your tenacity, I 
want to personally thank you because, in fact, Mr. Cummings is 
a fine ranking member, but you are, in fact, an advocate for 
technology and improvement in the government sector and for 
that you deserve a special shout out, so thank you, and I 
recognize the ranking member.
    Mr. Connolly. Thank you.
    Mr. Cummings. Thank you very much, Mr. Chairman, and I 
would echo your words about Congressman Connolly. As a matter 
of fact, he and I, talking about his efforts just yesterday and 
I said almost the identical words. I could have swore you 
overheard me.
    Chairman Issa. I could----
    Mr. Cummings. No, no, not that part. But it is--I want to 
begin by recognizing, Mr. Chairman, that it was your vision and 
bipartisan approach that paved the way to the successful 
enactment of the DATA Act, and I really do mean that.
    And I have often said in these hearings that this is our 
watch. It is not about this moment but it is about generations 
yet unborn, and we ought to be able to track dollars that 
hardworking taxpayers pay. They give their blood, their sweat, 
and their tears, they look at their returns on April 15th, and 
they say, well, where does the money go? They look at their 
paychecks every 2 weeks, every month, and they say where does 
the money go?
    I think this legislation goes a long ways toward helping 
them understand where the money goes. They simply want it to be 
spent in an effective and efficient manner, and hopefully this 
will cause those who are spending it to do just that.
    From the very beginning, Mr. Chairman, you worked closely 
with me and my staff as well as the administration and the 
Senate to craft a bipartisan bill that would provide the 
American people with information about how their money is being 
spent.
    Senator Warner and Senator Portman, we thank you for all of 
your efforts and what you have done. You have been a part of 
the watch, and we congratulate you.
    Your leadership and commitment got this landmark 
legislation over the finish line, and you should be commended 
for that leadership. Now the ball has been handed off to 
President Obama and his administration, and they have to run 
with it. I look forward to hearing from our witnesses, from the 
Office of Management and Budget and the Treasury Department 
about the administration's efforts to implement the DATA Act.
    President Obama has shown his support for open data. He 
issued an executive order on May 9th, 2013, that requires all 
newly generated government data to be available in open machine 
readable format. President Obama also joined seven other 
countries in launching the Open Government Partnership of the 
United Nations in 2011. That partnership has now grown to 65 
countries that pledge to create action plans to make government 
information open and accountable.
    The DATA Act builds on this ongoing work. This new law 
requires agencies to report detailed information about how they 
are spending money. Agencies are required by 2017 to begin 
reporting information using common data standards developed by 
OMB and the Treasury. OMB and the Treasury are then required to 
report the information agencies provide in a searchable and 
downloadable format. Once implemented, these requirements will 
improve oversight and accountability.
    Congress and the public will have an unprecedented amount 
of transparency into agency spending. Agencies will also be 
able to better use their own data to identify trends and make 
smarter funding decisions.
    Comptroller General Gene Dodaro said in testimony before 
this committee early this year that the DATA Act was one of the 
single biggest things Congress could do to address wasteful 
spending. I agree with this assessment, and I congratulate all 
of our stakeholders for working together to get this 
legislation passed.
    Our work did not end with the enactment of the DATA Act, 
however. It is critical for Congress to stay engaged with 
regular bipartisan oversight just like this hearing. Congress 
also must ensure that agencies have the resources they need to 
carry out the requirements of the DATA Act.
    As many of you know, I frequently say that we need to make 
the Government work more effectively and efficiently, and I 
have often looked at the way Government is run sometimes and 
said we are better than this. And so the DATA Act is law now, 
and so it has been implemented, and now we have to make sure 
that we move forward with it and so that it can be as effective 
and efficient as we intended it to be.
    And with that, Mr. Chairman, I yield back.
    Chairman Issa. I thank the gentleman.
    Chairman Issa. Members will have 7 days to submit opening 
Statements for the record.
    Mr. Chaffetz. Mr. Chairman, can I ask unanimous consent to 
speak out of order for 1 minute?
    Chairman Issa. Without objection, so ordered.
    Mr. Chaffetz. I wanted to take an opportunity here, one of 
our last hearings in this 113th Congress/Senate. On behalf of 
members on both sides of the aisle, I want to thank you for 
your service and your tenacity, your love and passion for this 
committee and your love and passion for this country.
    You have tackled some very difficult issues. You have 
plowed ground that hasn't been plowed before, and there are 
members here again on both sides of the aisle that are very 
grateful for your service and your commitment and your love of 
what we do, and it is contagious, and I personally came here as 
a young, fresh, eager-eyed person, and you opened up the 
opportunities and gave a lot of leash to a lot of us to do 
things that we didn't think we would be allowed to do, and in 
other committees they aren't allowed to do. But you have made 
us proud in every respect.
    We want to thank you for your leadership in every way, 
shape, and form. You have carried a fairly big gavel here, and 
we have a token of our appreciation. A little indulgence here. 
I would like to present that on behalf of the members here on 
the committee and thank you again for all that you have done.
    Chairman Issa. Elijah, I needed this sooner.
    Mrs. Maloney. Mr. Chairman, surprise.
    Chairman Issa. Senators, you have got to behave.
    Mrs. Maloney. Mr. Chairman, may I be recognized for 1 
minute out of order?
    Chairman Issa. With the indulgence of our Senate visitors, 
so ordered
    Mrs. Maloney. Surprise.
    Let me tell you, I have never enjoyed--I enjoyed fighting 
with you more than anyone, and believe me, this is a 
compliment. You don't need that big thing. I mean, you are not 
a pushover. You stand up for what you believe in, and very 
briefly, this bill is incredibly important. It is deep and 
strong. Implemented properly, it will make a more trust in 
government from the American taxpayer, and it is a significant 
tribute to you and Mr. Cummings working together to make 
government work better for people, so I join my words in 
congratulating you.
    Chairman Issa. Thank you.
    And Senators, I apologize for not giving you a Fox moment.
    Mr. Connolly. Mr. Chairman.
    Chairman Issa. The gentleman from Virginia.
    Mr. Connolly. I thank you, and I hope my colleagues from 
the Senate will indulge. I want to congratulate you as well, 
and I can only thank God you did not have that gavel when you 
began your chairmanship, but it is fitting that you get it at 
the end of your tenure. And I just want to congratulate you 
today on the news that the FITARA legislation, the Federal IT 
Acquisition Reform Act is in fact headed for passage both in 
the Senate and in the House, and I say congratulations to you. 
It was an honor collaborating with you on such an important 
topic, and it is a great way to cap your career as chairman of 
this committee. Congratulations.
    Chairman Issa. Thank you.
    All other accolades can wait until the Senators have gone 
to get to their vote because I do know you have a vote in just 
a few minutes.
    We will now recognize the senior Senator from Virginia, 
Senator Warner and the junior Senator from Ohio, Senator 
Portman, and if senior goes first--Mark, you haven't taken 
yourself out of running for president either.
    Senator Warner. I don't feel that senior. I don't feel 
that, you know----
    Chairman Issa. The gentleman is recognized.

                       WITNESS STATEMENTS

  STATEMENT OF HON. MARK WARNER, A UNITED STATES SENATOR FROM 
                     THE STATE OF VIRGINIA

    Senator Warner. Thank you, Mr. Chairman and Ranking Member 
Cummings, and let me--my friend Gerry Connolly took the words 
out of my mouth already. Having watched some of your 
proceedings, if you had had that big gavel throughout your own 
whole tenure, you might have seen some different results, so 
let me add my congratulations to you as well.
    It is great to be here with my friend Rob Portman, and 
echoing what you have both said on the DATA Act, it is 
remarkable when we do something significant in a bipartisan way 
that could have as much effect, as Mr. Cummings has said, on 
future generations, yet how little attention it gets when we 
actually do our job, and particularly on a subject like this. 
And I think it is appropriate at times that we all lifely argue 
about how big or small the Federal Government should be, but I 
think we all share a common belief that whatever size the 
Government should be, the dollars that we spend, we need to 
make sure are spent wisely.
    And one of the things I want to again commend you and the 
ranking member on, as a former Governor, I often thought the 
difference between a Governor and a legislator was a legislator 
thought the job was over once the bill was passed. When in 
actuality, it is really the implementation is where the rubber 
hits the road. And hearing what both you of you have said, and 
I know my friend Senator Portman shares this as well, we are 
going to keep common cause to make sure that the implementation 
of the DATA bill actually takes place in a timely and effective 
and efficient manner.
    And as you know, as we went into some of the last hours of 
trying to get this bill signed off on, and I don't think this 
was as much to the administration itself, but certain 
particular agencies, you know, resisted the timeline that we 
were putting forward. And again, I think it was a tribute to 
you and Ranking Member Cummings and those of us in the Senate 
as well to make sure that we keep this administration and 
future administrations' feet to the fire.
    The DATA Act really does have--I am going to echo what you 
have said, and I will try to do it fairly quickly--you know, 
obviously has tremendous promise to hold government more 
accountable and to provide actual critical useable information 
to policymakers as we try to make more informed budget 
decisions, because for the foreseeable future, we are going to 
be in tight fiscal times, and as well, to look at how we reform 
part of the structures of the Federal Government.
    You know, as has been said already, the most critical 
component of the DATA Act is the development of consistent 
governmentwide financial data standards. One of our first 
conversations as we kind of dug into this, one of the most 
remarkable things I found early on in this is the Department of 
Defense alone has 200 different financial reporting systems 
just within that one department. As somebody who has spent 
longer in the private sector than the public sector, you know, 
that is just unacceptable and totally unaccountable.
    An important part of trying to get consistent standards and 
a subject of much debate is how we define program across the 
Federal Government. You have already indicated, and I know we 
are--you are going to hear from Mr. Dodaro later, a recent GAO 
review of the first attempt to create an accurate inventory of 
all Federal programs, an inventory required by earlier 
legislation that we all worked on, GPRA, again a piece of 
legislation that most Americans have never heard of but is a 
good step along this direction. The first attempt to try to 
define the program was really not all that promising.
    Specifically, GAO found that agencies were allowed to 
select from one of several approaches when defining programs 
which led to an inconsistent categorizations. GAO also found a 
lack of coordination amongst agencies resulting in different 
definitions for programs with a similar focus. Again, that 
would never stand in any Fortune 100 company into the 21st 
Century.
    I hope we can all learn from this first attempt to define 
program and will adapt an approach with data that will be more 
useful to policymakers and support greater transparency. 
Obviously one of the things as well is to make sure that we 
have these new financial standards across all of government.
    For example, right now I know many universities in Virginia 
and many universities in each of our respective States file 
similar financial reports multiple times to multiple agencies. 
If all this reporting redundancy were streamlined, we could 
actually direct more resources to the actual programs rather 
than to the administrative overhead. I hope the administration 
will come back to us with some helpful recommendations to 
streamline and improve the reporting processes for those who 
receive Federal funds.
    And last, I would like to mention the need to make 
USASpending.gov website more user friendly. Now, we have moved 
this over, and we have had a lot of discussions in the 
development of the DATA Act about where this ought to reside. 
We came to the conclusion at the end of some debate that this 
ought to be at the Department of Treasury. We have got to make 
sure the Department of Treasury really does this and implements 
this program in a way that is consistent with the goals that 
all of us laid out in the DATA Act. Make this information more 
user friendly to the public.
    One of the analogies I tried to use as I tried to explain 
this to my press corps was, you know, you ought to be able to 
Google your tax dollar all the way down to the programmatic 
level. We have got to stay on this, and I want add one to last 
comment as well.
    As Chairman Cummings mentioned, we have got to make sure 
that these agencies have the resources to actually implement. 
Sometimes, again, as a business guy, you have got to invest 
before--to actually save money in the long run, and trying to 
make sure the agencies have the resources to do these reviews, 
set up these systems in a way that makes sense will obviously 
solve us--save us resources in the long run and again make our 
jobs as policymakers in making these budget decisions, I think, 
more accurate and appropriate.
    One last final comment before I turn it over to Senator 
Portman. We continue to make small progress in incremental ways 
in this area. I want to again thank you and my friend Gerry 
Connolly, all of us worked together on another piece of 
legislation that is in this same area of government oversight 
that the President signed into law just last week. The 
Government Reports Elimination Act. It is amazing. This one is 
actually a little more tangible. It identified and eliminated 
50 reports that government agencies produce that are never 
looked at, never reviewed. We should have been able to do, you 
know, 5 or 10 times that amount.
    We have gotten new legislation, Senator Ayotte and I, that 
is going to come back again. We will work with this committee 
to keep plugging away on that, but we need to make sure in 
every avenue that we show that we are spending the taxpayer 
dollars wisely.
    This is something that crosses party lines, idealogical 
lines, and I want to thank you and the ranking member again for 
working with Senator Portman and I to get this very, very 
important piece of legislation through.
    Look forward to working with you on implementing it.
    Chairman Issa. Thank you.
    Chairman Issa. Senator Portman.

  STATEMENT OF HON. ROB PORTMAN, A UNITED STATES SENATOR FROM 
                       THE STATE OF OHIO


    Senator Portman. Thank you, Chairman Issa.
    It is great to be back here in the committee room. I 
started off here in my congressional career. I was I think the 
most junior member of the lower body in the minority. In fact, 
I was at the kiddie table down here, and you know, this is a 
great committee, and one of the reasons it is a great 
committee, it has the potential to help us to be able to allow 
people who represent taxpayers to understand government better, 
and this legislation is a classic example of it.
    You know, you both talked about it. Senator Warner talked 
about it, but it does allow the people we represent to track 
where those hard earned dollars go and how they are being 
spent, and there is a lot of work to be done in implementation, 
and we are going to talk about it for a second this morning.
    I hope that you, the chairman, will continue to be very 
involved with this with us because this is something you had a 
passion for and helped to launch. You and Ranking Member 
Cummings had a little Kumbaya moment this morning that is 
reflective of the way you handled this all the way through, and 
it is good government it is good stuff.
    It does give Americans this unprecedented view into the 
Government if we implement it properly. A lot of it comes from 
something pretty technical which is transforming this spending 
data that is now owned by the Government into something that is 
accessible and that would be standardized machine readable 
data. It is not easy to do, and that is why I think the 
implementation is so important. I think it will result in not 
just more accountable government and not just better managed 
government but also a lighter touch, you know, more efficient 
and lighter government.
    The implementation of this requires some sustained focus by 
the executive branch but also by Congress. That is why this 
hearing is to important, and I know you are going to have some 
testimony later about how things are going. The first step--and 
I am not going to repeat what Senator Warner said, which is 
good about reporting processes, USASpending.gov, making it more 
user friendly, the need for investment up front, but there are 
some things I think that we ought to focus on this morning with 
our witnesses, and I look forward to getting a report as to how 
they answer all these questions.
    We know that some of these benefits that can be generated 
by uniform comparable data and detailed financial information 
is going to be only aspirational until we can actually see this 
implemented in a proper way. The standardization, we were told, 
had to be completed within a year of its enactment. That is 
under the DATA Act. It became law on May 9th, 2014, as you-all 
remember, so that means we are halfway through this period of 
standardization implementation.
    How is it going? I didn't think it was going very well at 
first, to be honest with you, and some of us talked about this. 
All four of us have talked about it. I think it is going a 
little better now. Shortly after President Obama signed it into 
law, you require OMB issued a Statement saying, ``Implementing 
the Act's requirements will be based on current funding and 
timeframes that permits.'' Not very encouraging, and I don't 
think that sent the right message at all.
    We did have Shaun Donovan, now OMB's director, before our 
committee on Homeland Security and Governmental Affairs, and we 
asked him about this during his hearing, and the response we 
got back was that he indeed was going to prioritize this if he 
became OMB director. That was more encouraging, and I think we 
have seen some improvement.
    I know, for example, the Treasury and OMB have been holding 
meetings with Federal and nonFederal stakeholders now. They 
solicited and received public comments on this standardization 
issue. The meetings have generated a lot of information that I 
know will help inform the scope and format of the data 
standards to be adopted.
    I understand Treasury and OMB also believe they are on pace 
to meet the deadline, which will be May of next year for 
publication of these data standards. If that deadline slips, it 
is a real problem because if that one slips, then other 
implementation deadlines will also slip, and I think all bets 
are off as to when we will fully realize the full promise of 
the DATA Act.
    So I hope those questions will be answered today as to 
whether they really are on track. It is--again, it is not easy, 
and it requires a lot of focus. As chairman and ranking member 
knows, when I was at OMB and had the opportunity to implement 
FFATA, which was far from perfect, and we will talk about that 
in a second, that is one reason we needed this legislation. It 
took a sustained effort and a concentrated effort; otherwise, 
it just won't happen.
    So let's not use this May deadline to avoid the hard work 
required to craft standards that aren't just applicable across 
the full breadth of the Government but also they are 
comprehensive. On that front, if there is a comprehensive, the 
signs are a little bit lessen encouraging. In May, OMB 
published a comptroller alert that informed Federal 
stakeholders that the DATA Act requires the establishment of 
governmentwide data standards for information posted to 
USASpending.gov. In its testimony today, OMB refers to 
USASpending.gov data standards I saw.
    That is not quite right. The law actually requires that the 
standards include, ``common data elements for financial and 
payment information required to be reported by Federal agencies 
and entities receiving Federal funds.'' That is what the 
legislation says. That is, the DATA Act requires the creation 
of data standards not only for those data elements that must be 
published on USASpending.gov but also for all data that 
agencies include in their required financial reports and that 
all recipients of funds must include in their required reports 
to agencies, so it is broader than that.
    Despite OMB's continued reference to USASpending.gov data 
standards, I remain hopeful that OMB and Treasury will develop 
these comprehensive data standards and infrastructure that can 
handle the whole landscape of Federal spending information, and 
that is required by the Act that we have put forward.
    In addition to it being comprehensive data standard, it 
must also be flexible, or we can maybe talk more about that 
later. We know we got to get on to the witnesses, but that is 
another part of this, I think, ought to be asked about today, 
and of course, data standards are just the beginning of the 
implementation process. One of the steps is to ensure that the 
processes and procedures are in place to ensure that agencies 
actually use these standards to consistently, accurately, and 
timely report spending data, and the Treasury and OMB use that 
information to publish timely and accurate data on 
USASpending.gov.
    We know that neither of these processes happens 
automatically. For example, thanks to the excellent work by GAO 
this year, we now know that Federal agencies failed to report 
nearly $619 billion in Federal spending to USASpending.gov 
during Fiscal Year 2012, the most recent year for which we have 
this information. GAO also found major deficiencies in the 
quality of the data the agencies did report, so the DATA Act, 
properly implemented, should address some of the root causes of 
these failures.
    One of the causes was that FFATA, again, which I was able 
to implement while I was at OMB, did not establish 
governmentwide comprehensive flexible data standards. A fully 
and effective implemented DATA Act will address that issue. 
Another cause of these failures is that FFATA did not establish 
a mechanism for effective oversight. And again, I think 
Chairman Issa, you, Mr. Cummings, and Senator Warner and others 
wanted to be sure that we had a better mechanism to ensure this 
is going to be subject to proper oversight not just here in 
Congress but also agency inspector generals and GAO would carry 
out their statutorily required oversight functions.
    I understand GAO is already working with agency inspectors 
general to develop some of these standards so that there is 
auto oversight protocols to monitor compliance with the DATA 
Act. I look forward to seeing the results of those efforts. 
That might be something that will come up today as well.
    Finally, I would just want to say that this is a great 
example of what we can do when we put our minds to something 
that helps our taxpayers that we represent. It was both 
branches, so bicameral. It was developed up here on the Hill 
but also working the executive branch. It was bipartisan. I 
would say even nonpartisan, and it is a very difficult 
political environment to legislate, let's face it, but this is 
a place where Chairman Issa, you, Ranking Member Cummings, 
Senator Warner, Senator Coburn, Senator Carper, and others 
decided here is the problem, let's attack it, and it is this 
opaque, murky information that is out there about government 
spending. Members of the Congress from both parties engaged 
each other, engaged the executive branch, we hammered out the 
details of the solution, and by the way, as objections emerged, 
we worked together to try to address them without wavering in 
our commitment to address the problem.
    Now, this model may not be able to be applied to every 
issue but there is certainly a lot where we have this common 
objective, and then it is just a question of putting together 
the right legislation to be able to address it, and I am 
hopeful we can use this as a model for doing other things into 
the future.
    And again, I want to thank Senator Warner for his 
leadership in the Senate, Senators Carper, Coburn, you, Mr. 
Chairman, ranking member, it wouldn't have happened without all 
of your involvement, and I look forward to continue to work 
with you on ensuring that it is implemented properly.
    Chairman Issa. I want to thank both of you for coming to 
this side, but more importantly, for being an active part of 
making this happen. This wouldn't have happened in a divided 
Capitol if it wasn't for the fact that it crossed party lines, 
so that has been extremely helpful.
    Chairman Issa. I have lost Mr. Connolly, but Senator 
Warner, I am sure you will tell him that I actually was given 
this at the beginning of my tenure, and I chose to never use it 
because I always felt that I was already too loud on the hammer 
with the small one.
    Senator Warner. I imagine there were some witnesses who are 
grateful for that.
    Senator Portman. So, double-fisted now.
    Chairman Issa. I thank you both.
    I would only close by saying in the next Congress, I hope 
we cannot only continue on the DATA Act but recognize that this 
committee's jurisdiction and your counterpart on the Senate 
side, we oversee the National Archives, and the quality of the 
data that goes in there sadly is going to, for a long time to 
come, be mostly paper or digital equivalence of papers.
    Lots of PDF, lots of things that cost a large amount of 
money to convert, and even then, are never as good as if they 
were put in in a machine searchable format, so I believe that 
financial is important for current, but for our progeny, I 
think we have to also invest in leaving a legacy of deep 
information that future generations can easily search.
    So hopefully we will use this as a base and continue across 
the spectrum.
    I thank you. We will take a very short recess.
    [Recess.]
    Chairman Issa. The committee will come back to order.
    We now welcome our second panel, the Honorable Gene Dodaro 
is Comptroller General of the United States, and we welcome you 
back. The Honorable David Mader is Comptroller of the Office of 
Federal Financial Management in the White House Office of 
Management and Budget, and Mr. David Lebryk is Fiscal Assistant 
Secretary of the U.S. Department of Treasury which has been so 
much talked about as the responsible--primary responsible party 
for the DATA Act.
    Pursuant to the committee's rules, would you please rise to 
take the oath, and raise your right hand. Just follow Gene. He 
knows this one.
    Do you solemnly swear or affirm the testimony you are about 
to give will be the truth, the whole truth, and nothing but the 
truth?
    Thank you very much. Please be seated, and let the record 
reflect at that all witnesses answered in the affirmative.
    The light will indicate your 5 minutes. Please try to stay 
as close as you can to it. Your entire opening Statements 
will--or Statements will be placed in the record along with any 
other extraneous material you may choose to provide.
    Mr. Dodaro.

                STATEMENT OF HON. GENE L. DODARO


    Mr. Dodaro. Good morning, Mr. Chairman, Ranking Member 
Cummings, members of the committee. I am very pleased to be 
here today to talk about the implementation of the DATA Act.
    I would like to start by commending you, Mr. Chairman, Mr. 
Cummings, and others, Mr. Connolly and the whole committee, for 
your vision and persistence in bringing the DATA Act to 
fruition and for holding this very important hearing on early 
implementation phases.
    As I have testified before this committee before, I think 
effective implementation of the DATA Act can have profound 
implications for increasing the transparency of government 
spending for the public, facilitate better management by agency 
managers by giving them more accurate and timely information to 
manage by and thereby promoting efficiency and effectiveness of 
government, and also to help facilitate efforts to reduce and 
hopefully eliminate fraud, waste, and abuse in the Federal 
Government and identifying the overlapping and duplicative 
programs that can be identified and remedied.
    Now, effective implementation, in my opinion and 
experience, will not happen without strong leadership by OMB, 
Treasury and attention by the agencies, and I think our recent 
report on USASpending.gov really illustrates the challenge 
here. Five years after implementation in 2012 data on 
USASpending.gov, we went in and took a look to see about the 
completeness and accuracy of the information, and we found 324 
programs were not recorded in the data base.
    Senator Portman mentioned a number omitted which is $619 
billion of spending was not included. We also checked the 21 
data elements that were supposed to be included in the DATA Act 
and trace them back to their agency records and only found 2 to 
7 percent of the information tracked back successfully for all 
the data elements.
    So we really have to do better with the DATA Act 
implementation. OMB and Treasury have agreed to implement the 
recommendations. I've talked to Dave Mader and Dave Lebryk 
about it, so I'm very pleased about that, but I would say that 
sustained congressional oversight is also very warranted in 
this area.
    For our part at the GAO, I am giving this a high priority. 
Our work, the legislation calls for our first report to be in 
2017, but you can look for a report from us next year. We are 
going to track every stage of the implementation over the 
period of time, not just look at the after the fact reports by 
the IGs. I want to make sure the data standards are complete 
and consistent, the agencies are poised to implement it 
successfully, that consultation agreements have worked 
successfully, and that we are off to a good start in 
implementing this.
    Also, I plan to give a--continue to give a high priority to 
making sure we have complete and accurate reports on the 
Government's financial condition. In my Statement today, I've 
included the results of our last audit of the Government's 
financial Statements in which we were unable to render an 
opinion because of serious control weaknesses.
    I mention the three major impediments to getting an opinion 
on the Statement which is serious financial management problems 
at the Department of Defense and problems at the Treasury 
Department, eliminating intergovernmental transactions and 
compiling Statements, and it includes our opinion on the 
Government's financial condition, which I believe continues to 
be on a long-term unsustainable fiscal path.
    I'd be happy to answer questions about the DATA Act 
implementation and our work on the financial Statements at the 
appropriate time, Mr. Chairman.
    Thank you again for inviting us to participate in this 
hearing.
    Chairman Issa. Thank you.
    [Prepared Statement of Mr. Dodaro follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Issa. Mr. Mader.

                  STATEMENT OF HON. DAVID MADER

    Mr. Mader. Thank you, Chairman Issa and Ranking Member 
Cummings, and members of the committee for the opportunity to 
testify on administration's progress in implementing the DATA 
Act, which as we noted, was signed into law May 9th of this 
year.
    This is my first opportunity to appear before the full 
committee since being confirmed as the OMB comptroller on July 
17th of this year.
    While I appear here today in my official capacity as OMB 
comptroller and the OMB official responsible, along with my 
colleagues from Treasury to implement the DATA Act, I'm also 
here as a taxpayer who has always been very interested in how 
our Government spends our tax dollars every year.
    Since the DATA Act's enactment several months ago, we have 
charted a very aggressive path toward implementation building 
off past experiences and successes to transform the way the 
Government does business.
    A one-stop shop for the display of all data presents the 
opportunity not only to have an open public facing dialog on 
how Federal dollars are spent but also serves as a tool for 
better oversight, management decisionmaking, and innovation 
both inside and outside our Government.
    Transparency is not the end goal but rather the means to 
the end. What we all seek is a better government that works for 
all of us.
    The DATA Act envisions a new and enhanced USASpending.gov 
website that will become the authoritative source for basic 
information of how agencies budget, obligate, and outlay their 
funds, and how those dollars are ultimately disseminated 
through Federal contracts, grants, and other forms of 
expenditures. But accomplishing this within the aggressive 
timeframes of the Act will be no small feat and one that will 
take several years and additional resources as envisioned by 
the Act and as scored by CBO.
    Since the DATA Act's passage in May, OMB and Treasury and 
the entire Federal community have come together to design what 
is a governmentwide effort. Over the past few months, we have 
executed several key activities.
    First, we have established a governmentwide governance 
structure to guide the effort and assign responsibility for 
various action items and tasks. This includes an executive 
steering committee as well as an interagency advisory committee 
and the designation in each department and agency of senior 
accountable officials who will be responsible for the 
implementation of their act within their respective 
organization.
    This concept worked well for the Recovery Act 
implementation, and we want to build on past experiences and 
successes. No time and no need to reinvent the wheel.
    Second, we have developed an evolving implementation plan 
that assigns responsibility and accountability and establishes 
action items and timelines that address each of the major 
deliverables of the Act. Attached to my written testimony, 
there is a very concise graphic that depicts the government 
structure, the assignment of roles and responsibility, and the 
structure for the implementation and continuous engagement of 
stakeholders both inside and outside of government.
    As we move forward in these first initial months of 
implementation, we have a clear path forward, accountable 
executives assigned, and with the Congress' support, 
appropriate funding, and our mutual interest in improving 
spending transparency and improving how we manage the 
Government's resources and how the public is aware of those 
decisions, we will all be successful.
    Thank you for the opportunity to testify today, and I look 
forward to your questions. Thank you.
    Chairman Issa. Thank you.
    [Prepared Statement of Mr. Mader follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
           
    Chairman Issa. Mr. Lebryk.

                    STATEMENT OF DAVID LEBRYK


    Mr. Lebryk. Chairman Issa, Ranking Member Cummings, and 
members of the committee, thank you very much for the 
opportunity to appear before you, and thank you for your 
leadership. I know I have 5 minutes, and I can talk a long time 
about the DATA Act because----
    Chairman Issa. The earlier folks each left an extra minute, 
so without objection, you can have up to 7, no problem.
    Mr. Lebryk. Thank you.
    What I thought I would do is I would spend a few seconds 
talking about the importance of data, how we've approached this 
initiative, and then finally what Treasury is doing with 
respect to implementation.
    There is enormous power in data, and open data allows us to 
make better decisions and allows us to run government in a more 
efficient and effective fashion. It leads to a more informed 
citizenry, it leads to better innovation, and it leads 
ultimately to better government.
    We have seen the power of data, and as was mentioned by 
Senator Warner in his remarks, in the best run public and 
private sector organizations, the strategic CFO function owns 
the data and links that data to everyday operating activity. 
And one of the reasons why I think we've been fairly successful 
in our efforts to reach out to the Federal community is because 
the Federal CFO community understands that the DATA Act will 
significantly improve their ability to fulfill their 
responsibilities as a CFO.
    And so while we are talking about a fairly innovative 
approach as we go about this project, and I think that is one 
of the things we need to talk about with the agencies is about 
how we're actually implementing, the underlying principle is 
very well understood within the Federal Government and the need 
to do these things.
    There was a discussion earlier about multiple systems and 
different agencies, and one of the real difficulties we have 
right now is there are too many systems in government, and data 
is siloed in different areas, and it's very difficult to 
actually find that data and use it, and so we spend too much 
time on data calls, we spend too much time trying to find 
information, and then in actually trying to make sure it 
reconciles and is useful, and the DATA Act has enormous 
potential to actually get at that issue within government.
    We also know that better data leads to better decisions, 
and the CFO function can actually have a much more strategic 
role within the Federal Government. We also know that better 
data can lead to innovation both within government and outside 
of government. When you look at examples like the GPS that 
people use on a daily basis, you look at the National Weather 
Service, those are examples of open data that the Government 
provides to the private sector and uses that information to 
improve the lives of Americans in a number of ways.
    And so when we're looking at our information that we have, 
I would say we're similarly trying to look at how we can use 
financial data to better inform citizens and allow them to 
understand government better but also to potentially drive 
innovation.
    With respect to how we approach the initiative is we had a 
number of principles that we looked at. Something like this, a 
major initiative needs leadership, and the DATA Act clearly 
puts forward that Treasury and OMB need to work together to 
provide that leadership. Dave and I are accountable for this, 
and we know that.
    There needs to be a vision and a direction, clarity of 
purpose. There needs to be a roadmap with milestones and roles 
and responsibilities that have been identified. That's why I--
very rarely is this chart very far away from me which sort of 
says this is what the governance structure is going to be with 
respect to implementation and how we're going to implement the 
Act with respect to roles and responsibilities.
    We also need to make sure that we're doing consultation and 
collaboration, and so some of the underlying principles are we 
need to build on existing efforts within government. We need to 
make sure that we're collaborating. We need to make sure that 
we're leveraging industry standards and practices so that we're 
not reinventing the wheel in many cases.
    We have also identified this effort as data centric, and 
therefore, not an initiative which is going to be building 
large new systems. I think some of the things that we have 
learned in Treasury over time is that when we put new standards 
in place, it oftentimes is very difficult to make the changes 
to the underlying systems and expensive to make those changes. 
So in this particular case, we've talked about a data-centric 
approach, that is, the ability to try to access the data in the 
agencies, not changing the underlying systems but tagging the 
data and mapping the data so we can actually extract it in a 
variety systems and use it more effectively.
    We also very much want to make sure it's agency-centric. In 
the past, the initiatives have been information comes to 
Treasury and the agencies don't own it. So in this effort, 
we're really talking about how to make sure that the agencies 
themselves own the data and therefore are the ones who are 
going to make the best use of it and have the best interest in 
ensuring the underlying quality of the data as we are going 
through the implementation process.
    Finally, I want to talk a little bit about what Treasury is 
doing with respect to the implementation. We established a 
program management office headed by a senior executive, and 
that program management office is helping drive the vision as 
well as making sure Treasury is fulfilling its responsibilities 
under the Act.
    Treasury has responsibilities under the legislation to do a 
blueprint and a roadmap, and that is, to look through where 
data exists across agencies and in systems and saying how can 
we tag that data across those different systems. We have to do 
data exchange standards, and that is, what format is the data 
going to be used so it's machine readable and useable outside 
of the Treasury. And we also have the responsibility for doing 
data analytics, of building the data analytics function.
    We also are very much keenly involved in the outreach and 
making sure that we're collaborating and reaching out to the 
industry and government to make sure that we're understanding 
what the best practices are, and advocacy groups so that we're 
very much trying to make sure that this is implemented in a 
very smart and effective way.
    That concludes--actually I think I have gotten pretty 
close--my remarks, but I once again say we really do view this 
as an opportunity. It's something that I know when we look at 
it within Treasury, we know it can have an opportunity to 
really make a difference in government, and so we talk about 
better data, better decisions, better government, and the Act, 
I think, is going to be very helpful in advancing those 
objectives.
    Thank you.
    Chairman Issa. Thank you.
    [Prepared Statement of Mr. Lebryk follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairman Issa. I'm going to not throw a curve, but I'm 
going to talk about something that's not explicit in the Act 
that's extremely important.
    Mr. Dodaro, you, of course, know about the RAT Board and 
what they do, but maybe for both of you, we could have an open 
dialog about what under the Recovery Act, what's called the 
RAT, years ago, almost every member of this committee was 
encouraged and went over and they--they saw during the spending 
of that nearly $800 billion under the Recovery Act, they saw 
that center find areas of waste or fraud that previously were 
not found in realtime.
    Good example would be a number of individuals, criminal 
individuals who pretended to be doctors from the midwest, set 
up a facility in California in a matter of minutes on what was 
in, fact, a pilot. They were--and they had jurisdiction only 
because of a few dollars being spent in that area. They were 
able to determine that this was an anomaly. They were able to 
then take open source material and actually look at Google 
Earth and look at the building that made no sense at all. Mr. 
Mader, you're obviously familiar with it. Made no sense at all 
and to say, wait a second here, there's something wrong there.
    Then they used a high-tech instrument called a telephone, 
and they called the doctor's offices and were immediately told 
of course the doctors are not practicing in California. They 
are Kansans, they're Missourians, and so on. That technology 
was startlingly improving our ability to go after waste, fraud, 
and abuse. It is not explicit, but it is an area of concern 
both that the GAO have access to that capability, that all of 
the inspector generals have access to that capability, 
particularly because IGs, as you-all know, generally see a 
stovepipe of their area of jurisdiction while the data base 
that you will be producing would allow, with the right 
safeguards, them to look across platforms to be able to find 
out, for example, that an individual had been debarred, 
somewhere else, et cetera.
    What will you be doing to preserve and hopefully keep 
operational either the RAT Board or a next generation 
equivalent? Mr. Mader.
    Mr. Mader. Mr. Chairman, I was nodding my head because I 
also, in the short time that I was back in Government, had an 
opportunity to go over and spend time with the team over there 
and----
    Chairman Issa. And we might mention Earl Devaney--Devaney's 
pride and joy was exactly that example because it was so much 
faster than the normal 90 days after we get defrauded, we find 
out where they used to be before they leave.
    Mr. Mader. Right. And then in my--actually in my private 
sector life for the last 10, 11 years I actually had done a lot 
of work in the area of how do you sort of unleash the power of 
these silo data bases, and I really want to defer to my 
colleague Dave Lebryk but want to sort of set the stage because 
Treasury, as you know, has had now for a number of years an 
operation called ``Do Not Pay Business Center,'' and we've 
seen, even though it's, you know, only developed in the last 
several years, some real benefits across government in 
identifying those--the kinds of situations that you have 
commented on.
    And I think that with the DATA Act and the ability to break 
down these silos and to make this data available not just to 
the public but to internal government oversight organizations, 
we should see more and more of the examples that you 
articulated because it's not about--the technology is important 
but it's about the data, and we have this data that's been 
locked in these silos.
    And Treasury has done some very significant things in a 
short matter of 2 years in, you know, in sort of opening up our 
eyes for the entire government saying, look, you know, if I can 
start running payments past disparate data bases that I didn't 
necessarily have access to, I can do exactly what you said, Mr. 
Chairman, I can start stopping the payments before they're made 
because I think we--we all know that paying Chase is not the 
future, but I think the DATA Act combined with Treasury's 
capabilities is going to allow us to stop it before it goes out 
the door.
    Thank you.
    Chairman Issa. Mr. Lebryk, not only would I like you to 
comment on that, but I'd also hope you could include what your 
plans are to make sure that in the President's budget there are 
sufficient funds for that portion of the operation. Please.
    Mr. Lebryk. You'll be pleased to know that we've been 
working closely with the Recovery board on this issue, and in 
fact, we've hired several of their personnel who actually ran 
the RAT, is now running--is a senior person in our Do Not Pay 
effort.
    Chairman Issa. Good.
    Mr. Lebryk. And, we've been really trying to leverage that 
expertise and that knowledge. As Dave mentioned, we have a 
number of data bases which we're actually matching against 
right now as well. We're building that functionality. We're 
really trying to leverage what was learned at the Recovery 
board and implementing that and putting that in the Do Not Pay 
effort as we're going along.
    As--right now, I think that, you know, one of the real big 
things we're going to have is how do you then sort of build 
that analytical function. And so one of the things that we've 
been doing is we have a lot of information on payments, and so 
what we're doing for really the first time is looking at 
payment history files and saying, look, if there's payments 
that are being made to the same address from different 
agencies, if there are payments that are being made to foreign 
countries, if there's unusual things that are occurring in the 
payment, how do we actually sort of cue that information up and 
then refer to the IG or investigate further about whether those 
are proper payments?
    And over the coming--that's one of the real high priorities 
we have within the bureau in the coming year to really build 
that functionality and make it more systematic. With respect to 
additional data bases, we're in the process of bringing more 
searchable data bases in like the Death Master File. Right now 
we only have access to the public Death Master File. We very 
much would like to have access to the private death master 
file, which is more expansive.
    We have the excluded parties list that we're matching 
against right now. CAIVRS, which is for debtors, we're building 
that into the functionality, making sure we're not paying 
prisoners. That functionality is coming in the coming year as 
well.
    So we're really trying to make sure that we do exactly what 
you point out is making sure government is not making payments 
to people it shouldn't be making payments to.
    Chairman Issa. And just a quick one, and I'll give 
additional time to the ranking member; but the criminal 
portion, is there a fast track anticipated so that in addition 
to stopping the payment, that you have a very accurate link to 
see that there is a criminal investigation when appropriate?
    Mr. Lebryk. I'm not sure how much linkage we have on 
criminal investigations right now. If they're on excluded 
parties list, it would show up in that data base as going 
through. With respect to prisoners, sometimes that's a problem. 
We do have access to----
    Chairman Issa. You can only lock them up so many times.
    Mr. Lebryk. Right. Right. So we are putting that data base 
in place as something we can match against.
    Chairman Issa. Thank you very much.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Dodaro, as I listened to you, I think the thing that 
you said that should concern all of is the issue of whether 
information going into this system is complete. Because without 
good information, I mean, we might as well go home.
    So do you think that the--first of all, it's the agency's 
responsibility to get this information in. Do you think there's 
enough of a hammer, enough tools to push the agencies to get 
the information that we need? Because, you know, a lot of times 
I look at government, and I get a little frustrated because 
people say when the rubber meets the road, everything's going 
to be fine. And then when it comes time for the rubber to meet 
the road, there is no road. And we saw that in Katrina and I 
could go on and on. But I'm trying to figure out, I don't want 
us to be sitting here thinking that we're doing something that 
we're not. And certainly without information, without accurate 
and complete information, I'm trying to figure out, you know, 
well, what's the point? Please.
    Mr. Dodaro. Yes, no and that's exactly right. I mean, I 
have been concerned. We have issued two reports since 
USASpending.gov initially was put into place and practice on 
reporting on expenditures from Fiscal Year 2007.
    In 2008, we found data problems and when went in in 2012 
and found completeness and accuracy problems as well. Now, the 
DATA Act helps address this by having regular reviews by the 
Inspectors General to provide an additional oversight tool on a 
regular basis that I believe will help, but right now, you 
know, there are no sanctions or anything in there.
    But I think it's something I'm going to pay a lot of 
attention to, and the GAO will, because, you know, to get the 
full benefits of this, you have to make it accessible and 
transparent, but it has to be right. The data has to be 
accurate, and it has to be complete. And without that, you 
really are limited in your ability to use this powerful tool 
that we're providing to people so----
    Mr. Cummings. Well let me ask you this. Do you like what 
you see with regard to OMB and Treasury and their efforts to 
implement?
    Mr. Dodaro. I think they're off to a good start in terms of 
getting organized, getting the governance structure in place. 
They've outreached, and they've got stakeholder involvement, 
which we believe is important. I think the pilot is important 
to reduce recipient burden in reporting and to consolidate some 
of the requirements. That's a very good start.
    So I think they're off to a good start, but, you know, the 
experience that we have seen at the GAO is the agency 
implementation part of this is where the weak link is, where it 
breaks down----
    Mr. Cummings. You've said in your written testimony that 
the DATA Act will increase oversight in detecting and 
preventing fraud. Is that right?
    Mr. Dodaro. Yes.
    Mr. Cummings. One challenge agencies face in reducing fraud 
is a lack of transparency between contractors and subsidiaries 
and their subsidiaries.
    Agencies currently contracted through a unique identifying 
number called a DUNS number. This number is assigned through an 
exclusive contract with a company called Dun & Bradstreet. Is 
that right?
    Mr. Dodaro. That's correct.
    Mr. Cummings. Many companies have multiple subsidiaries 
with different DUNS numbers, so a company that commits fraud 
can sometimes get around past performance reviews that should 
disqualify it from doing business with the Government. It 
appears that one government contractor, USIS, tried to do just 
that. The Department of Justice alleged in a recent false 
claims act suit that top USIS officials engaged in a massive $1 
billion scheme to defraud the Federal Government in the 
company's contracts to conduct background checks. Yet despite 
these grave allegations, the Department of Homeland Security 
awarded USIS a new contract this summer.
    Mr. Dodaro, does this raise any concerns for you?
    Mr. Dodaro. Well, we issued a report a couple years ago on 
the Government's use of the DUNS numbers raising some concerns 
about the Government being so dependent on a sole proprietary 
set of information, and the costs were going up because of 
that, and there were limitations that were put on the 
Government by the contractor, and so we encouraged GSA to take 
another look at this issue.
    Now they have, and they have put in place a replacement 
system off of a system that was in place at the Department of 
Defense called the CAGE system. It's in the Federal acquisition 
regulations now, and it will set up a government-owned 
identifier, but it will, to your point, also provide linkages 
to the next tier up of a company and the top tier of the 
company if they're affiliated companies.
    Mr. Cummings. So, is that in effect now?
    Mr. Dodaro. I believe, yes, yes it's in effect now, but it 
will be transitioned over time.
    Mr. Cummings. OK. Well, on October 20, GAO upheld a bid 
protest by one of USIS' competitors. In it's decision GAO 
concluded that DHS, ``failed to obtain and consider the 
specific allegations of fraud alleged by the Department of 
Justice.''
    GAO also found that DHS, ``failed to consider the close 
relationship between the awardee and its parent company.'' Now 
the system you just talked about, this new system, would it 
detect that?
    Mr. Dodaro. It's supposed to, going forward. Right.
    Mr. Cummings. Can you get me some additional information on 
that, because I'd like to have that?
    Mr. Dodaro. Sure.
    Mr. Cummings. One problem here was that the DUNS--the USIS 
subsidiary bidding for the DHS contract had a different DUNS 
number than the subsidiary accused of fraud against the United 
States taxpayers. Do you believe it is possible to link the 
DUNS numbers of subsidiaries to make it easier for contracting 
officers to check this information before awarding new 
contracts to companies that defraud taxpayers?
    Mr. Dodaro. I'll have to get back to you on the specifics 
as it relates to the DUNS numbers specifically, but the effort 
that the Government puts in place ultimately, whether it uses 
that system or another system, should be able to do what you're 
talking about and should be able to do it on a consistent 
basis.
    Mr. Dodaro. But, again, what we have learned from our 
experience, it's the same thing on excluded parties list about 
whether it should be checked before making awards that's been 
in place for years. Oftentimes the agencies don't execute 
properly against the requirement. So you need both. You need 
the capability, and you need the management discipline to 
execute properly.
    Mr. Cummings. Last question, Mr. Chairman. Thank you.
    Does everyone on the panel agree that we should consider 
ways to ensure that the Government has access to the data it 
needs to identify links between companies and their 
subsidiaries? Mr. Mader.
    Mr. Mader. Absolutely. Actually I agree with what Mr. 
Dodaro said. I mean, it's not a technical issue per se. Really, 
and it goes back to one of the fundamentals of the DATA Act, is 
how are we going to define identifier, you know, both the 
parent as well as the children of those companies; so yes we 
can deal with that during implementation as well.
    Mr. Lebryk. I agree.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Chairman Issa. Mr. Dodaro, because you're answering the 
ranking member's question, I want to expand it just a small 
amount. Under the CAGE system, one of the complaints that DOD 
contractors have had for years is they can be locked out of new 
contracts because of a merger or a divestiture because that's a 
fairly cumbersome system.
    So as you're answering his question for how we stop fraud 
like the USIS complaint that he had, but also how would we 
streamline that to make sure that, which often happens, 
somebody acquires somebody or a unit is spun off or sold to 
another account, and literally DOD finds themselves unable to 
issue a new contract until somehow they can reconcile the 
unique identity of something that has become no longer part of 
a parent.
    So I think Mr. Cummings' point is extremely good, that it's 
the combination of, if you will, a DUNS which is quickly 
assigned, versus the CAGE system which can be very cumbersome, 
when even, you know, Rockwells and Lockheeds, very large 
companies sometimes sell a unit to each other and find 
themselves in a real conundrum.
    So if you would answer it fully, I think it would help us 
understand the implementation of the DATA Act?
    Mr. Dodaro. We will definitely do that.
    Chairman Issa. Thank you.
    Mr. Lankford.
    Mr. Lankford. Thank you, and let me join others in the 
accolades for getting a chance to serve with this chairman, and 
I very much appreciate the time to be able to serve with him 
and the way that he's handled things here.
    Mr. Comptroller, I want to make a couple comments on some 
comments that you have in your written Statements as well as 
you have made some of your oral Statements as well. From your 
written Statement to us it said that the DATA Act was enacted 
to help address these challenges. Among other things DATA Act 
requires, No. 1, the establishment of governmentwide data 
standards by May 2015. How's it going on that? Do we have a 
firm deadline on that to have those data standards in place? 
What's the progress report?
    Mr. Dodaro. Well, I think that the Treasury and OMB and the 
agencies are off to a good start. They've got task forces set 
up by HHS to look at the award data and DOD to look at the 
contract data and come up with some common data elements. So 
they're laying the initial framework. They have a long way to 
go though before they're going to have the standards in place. 
We will be evaluating their progress and commenting on those 
standards that they will be issued in May.
    So we're tracking them very closely, but I'm encouraged 
that at least they're getting organized across the Government 
to address these issues and to use some things that are already 
in place which will help expedite implementation.
    Mr. Lankford. All right.
    Mr. Mader, is that an achievable goal, to be able to get 
there by May of next year?
    Mr. Mader. Congressman, that's our goal. As Mr. Dodaro 
mention, when we look at some of these aggressive dates, we put 
in place not just the governance and the planning process, but 
we actually put together a working team between HHS and DOD to 
actually start working on what we believe are the critical 
ones.
    Mr. Lankford. So what are the major threats to not 
achieving that goal? Is it a hardware or software issue? Is it 
agency communication? Is it training? What's the major threat 
to not achieving that goal?
    Mr. Mader. For this particular goal, it's really--we have 
the right resources, and it's just keeping the focus; and the 
folks that we have identified from both of those departments 
are advocates of what we're trying to accomplish. So, you know, 
my expectation is we'll make good progress.
    Mr. Lankford. So help me understand here. It's a matter of 
just management, of getting everybody flying in formation to 
use a better term. You have the software you need. You have the 
hardware you need. You have the plan in place. It's just a 
matter of getting every agency to actually implement it?
    Mr. Mader. Well I think, Congressman, what we're talking 
about is coming up with uniform definitions that can be used 
across government. So we're really not in the technology and 
moving data around. We're just getting a clear definition of a 
core group of terms so that whether you're dealing with an 
acquisition or you're dealing with a grant, let's use, you 
know, place of business means the same regardless of a 
government contract or a grant to a university. And so that is 
really just intellectual work that needs to be done over the 
next several months.
    Mr. Lankford. While we're on that conversation, let's talk 
a little bit about the definition of the word program, which 
has been a much-discussed definition of what does that mean? I 
know there are some GAO reports on that, and OMB has basically 
said let the agencies determine on that, but there has to be 
some sort of uniform system of how do we actually define the 
word program from place to place so that we know that we get 
accurate information.
    So, how is that coming, and what is the progress on trying 
to get the word program defined?
    Mr. Mader. Actually within the statute there's a statutory 
definition of program activity, and it basically ties back to 
both accounting and financial management and the budget, so 
we're basically using that as sort of the framework and the 
bedrock and looking at, you know, here's what the statute says 
the definition of program activity is. And now the trick is 
going to be, how do we ensure that it is interpreted correctly 
and consistently across the breadth of the Government?
    Mr. Lankford. So that should be completed by May 15 as 
well, trying to get that definition across the agencies so they 
have a consistent understanding of that word?
    Mr. Mader. I think, Congressman, it will easy to convey the 
definition. The challenge is going to come in the actual 
implementation over time.
    Mr. Lankford. I understand. That's become the question. Is 
that a May 15 or do you think that's a couple years from now 
before everyone actually falls into line with a clear 
understanding and implementation of that?
    Mr. Mader. I think it's a very iterative concept that not 
only the program activity but a lot of the other definitions, 
it's a matter of educating people, recognizing that, you know, 
in May we're not actually going to start moving data around, 
but we need a foundation of an understanding across government 
and across the different communities that this word means the 
same regardless of whether you're in DOD or DHS or HHS so that 
we have that consistency. It's about education, sir.
    Mr. Lankford. OK, good. Let me ask one more brief question.
    Mr. Chairman, do I have 1 minute to ask one more additional 
question? Thank you for your generosity on that.
    Mr. Dodaro, you have a Statement in your written testimony 
that says while--let me just read it. In June 2014 we reported 
that while agencies generally reported contract information as 
required, many assistance programs, grants, or loans were not 
reported. What did you find from that?
    Mr. Dodaro. We basically found there were 324 programs that 
were not reported, totaling about $619 billion of assistance. 
Now when we brought it to the attention of some of the 
agencies, they have reported some of the information 
subsequently, but other programs have not, including many 
programs at the VA have not yet. So we're continuing to 
followup on that.
    Mr. Lankford. Obviously in many agencies there are more 
grants than there are contracts that are going out now, so 
that's pretty important that we get the grant/loan part of this 
as well consistent within obviously the DATA Act making that 
same request as well to be able to coincide with that.
    Is that progress ongoing that you think that that's going 
to also make deadlines and targets at this point to be able get 
grant/loan information as well as contract information?
    Mr. Dodaro. Yes. You have many more agencies involved, as 
you point out, in a grant area so that you need to bring them 
into line in terms of compliance, so there's more people to 
monitor in that activity. HHS is a big player obviously, but 
many agencies do that. Where in the contract areas it's largely 
a few agencies let most of the contracts.
    So it will be a greater challenge for OMB and Treasury to 
exercise oversight over the agencies, and hopefully the IG 
reviews will demonstrate that as well. So I'm hopeful there 
will be better progress, but it has to be a priority for the 
agencies, and hopefully the Administration will make it one.
    One of the reasons I want to be so active in this is that 
the initial implementation of this legislation, we have talked 
about the May dates, but there's dates for 2017 and 2018 for 
the agencies to actually implement these things.
    The initial implementation of this legislation will span 
two administrations, so there needs to be continuity among the 
administrations to make sure that this operates effectively, 
and that's one of the things GAO can do is try to urge the 
administration to maintain continuity.
    Mr. Lankford. Mr. Chairman, thank you for your indulgence 
in that.
    Chairman Issa. You are most welcome.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. You used your small 
gavel to clamp down on the acclamations to you. I can 
understand that, so I'm going to have to use my own time.
    But it's worth it because mine is the only jurisdiction 
which has to come before this committee; and Mr. Chairman, I 
cannot thank you enough for the way in which you have upheld 
the principle of Democratic local government. And that is 
something to say when you consider this committee because this 
is a very contentious committee with differences on national 
issues.
    This chairman never let those differences, never required 
or thought that I should change my view on those national 
issues in order to get the assistance of the chairman on 
matters affecting the District of Columbia. Helped us keep the 
place open. He was helpful in matters coming through this 
committee when they came through this committee. Sometimes I 
had to ask can we jump onto your markup. He was always willing 
to do that and to help us in the Senate as well, but 
particularly for respecting what I think is a bipartisan 
principle that local government is for local government.
    You have been invaluable as chairman of this committee to 
the District of Columbia, and I thank you for it.
    Chairman Issa. Thank you, gentlelady.
    Ms. Norton. I just have a question to make sure that there 
is not, for a bill that I don't think will cost that much to 
implement, an elephant in the room if you will forgive me. It 
will save so much money in the long run perhaps even the short 
run. Senator Warner said something as a business person to 
invest, of course, you have to invest in order to save money.
    Congress doesn't operate that way. It operates on annual 
appropriation. It's supposed to save year by year. And so it 
ends up spending much more money than it should. So this matter 
is not for the administration alone, and I don't think it 
should be, and you keep saying, you know, deadlines can be met. 
You don't see any threats, you said to the last member, to its 
implementation.
    But I do note in your testimony, Mr. Lebryk, you were 
candid in saying that the DATA Act did not provide any 
additional resources to the agencies, and you and I both know 
those agencies are under severe restraints.
    Even before a sequester, they were under, had faced huge 
cuts. We are only talking about $300 million over 4 years, 2014 
to 2018. And the estimate was only $2 or $3 million per agency. 
Of course that could mean staff. That could mean whether you're 
moving or not. And I wonder, have you done any internal 
estimates to identify the cost of implementing the DATA Act for 
agencies? Because this gets to be particularized when we talk 
about the other priorities they face.
    Mr. Lebryk. Ms. Norton, as I mentioned in I think both my 
written as well as my oral comments, the CBO when the bill was 
moving toward passage and an eventual signature, had initially 
scored it at the $300 million figure that you noted, but that 
was, you know, back 7 months ago, and it was based on what they 
knew at the time, and it was primarily focused on Treasury 
effort; but I think as all of the witnesses have talked about, 
including the two Senators, that this is a pretty extensive 
effort to go into hundreds of stovepiped data systems.
    First of all, identify what those data elements are, get 
agreement on standardization and then be able to--and Treasury 
is looking at some innovative techniques on how to do this--
pull that data together so that we can display it in an 
intelligible way on this new Website. So the short answer is 
we're working on our own estimates now of what the level of 
effort would be.
    Ms. Norton. You don't think that $300 million estimate is 
correct at this time? It's what----
    Mr. Lebryk. I think it's a good down payment.
    Ms. Norton. It's going to cost more than that?
    Mr. Lebryk. It's hard to tell right now. We're actually now 
out asking agencies to start looking at their current 
environment. And Mr. Dodaro mentioned the number of different, 
let's say in DOD systems, you know, what is it going to cost to 
identify the data elements across----
    Ms. Norton. Are those funds going to have to come from 
whatever funds they already have?
    Mr. Lebryk. Well, you know, unfortunately there was no 
funding in 2014, and we actually started our work in 2014----
    Ms. Norton. Mr. Lebryk, you mentioned this in your own 
testimony. And, again, I don't know how we can just skip over 
that. There's no funds in the bill. There's no funds in this 
appropriation. This is a task that the agencies have never done 
before.
    How do you expect an agency, particularly a complicated 
agency, to go at doing what it's never done before with no new 
funds? And what should happen now to make sure that there are 
resources allocated to save the extraordinary amount of funds 
that you know will be saved in the long run? What steps should 
be taken now? Because they're going to throw up their hands and 
they're going to say, look, this is complicated. We don't have 
the money. We don't have the staff.
    Mr. Lebryk. The first step is to come up with an estimate 
based on what we see now as not only the specifics with regard 
to the deliverables and the timelines but also our sort of 
basic understanding of what the level of effort is----
    Ms. Norton. Wouldn't it be honest in the next budget when 
the agency goes to the OMB to ask for whatever funds it would 
take to begin implementation of this so that we're not stalled 
by agencies having to look to whether or not it has funds? I 
can tell you this right now, if it does not have the funds, 
there is very little incentive for an agency to dip into its 
already cut budget and begin anew on a brand new, unprecedented 
project?
    Mr. Lebryk. My indication, Ms. Norton, is that we actually 
can't wait until next year; that it's going to be a this-year 
problem.
    Ms. Norton. From the President's budget, the agencies can 
ask for----
    Mr. Lebryk. Well, for the current Fiscal Year we're in, you 
know, we're doing, as I mentioned on data definitions, we're 
doing sort of the intellectual work, but we're going to quickly 
move in the springtime into more detailed work across the 
breadth of the agencies, and therein lies, to your point, the 
challenge that there is a sort of unfunded mandate----
    Ms. Norton. Is the President's budget being made now for, 
what is it, 2016? Is it being----
    Mr. Lebryk. For 2016 it's under consideration.
    Ms. Norton. Are you working with the agencies to make sure 
they ask for the funds, a small amount of money, at least based 
on these, at certainly a startup?
    Mr. Lebryk. That's why we have gone out and asked them for 
what is your initial estimate to get started.
    Ms. Norton. That's very reassuring.
    Chairman Issa. Would the gentlelady yield?
    Ms. Norton. Yes, sir.
    Chairman Issa. And this may be part of your question, but 
if we could perhaps expand it. There are billions of dollars 
worth of money that is spent, $82 billion, developing systems, 
IT, et cetera, much of which, some of which is for accounting 
and reporting.
    So I think the gentlelady's question is a very good one. I 
would hope that we could expand it to sure we look at how much 
was already there to do financial accounting and reporting so 
that we understand that the $300 million that this started off 
with, and it kept shrinking by the way because systems that 
were already ordered to be done were being rolled out, so 
things that they said would have to be done to comply with it, 
that number kept going down.
    So as long as we understand the scope of how many millions 
or billions of dollars are already being spent, then I think we 
get a good idea of whether there is an incremental cost or in 
the 10-year window an incremental savings; and hopefully it's 
both, an incremental cost that's reported and we fund and 
incremental savings that in the 10-year window allows us to be 
neutral or even a savings. If that's your question?
    Ms. Norton. It is, and that's the way to look at it, it 
seems to me, over a 10-year period. But that may require some 
up front investment, and I do agree with the chairman. Some of 
these funds might be used to begin this project. We wouldn't 
want any data to be lost in the transition however.
    Chairman Issa. We now go to the gentlelady from New York, 
Ms. Maloney, if you're prepared.
    Mrs. Maloney. Thank you for this really important hearing.
    I thank the Ranking Member for working on this and you, Mr. 
Chairman.
    And I'd like to ask Mr. Lebryk, during an interview about 
the DATA Act in October, you said, ``agencies need to own the 
data and use the data,'' and if agencies have a sense of 
ownership of the data they report, do you believe that they 
will increase the accuracy and utility of it? Why is that so 
important that you were mentioning that?
    Mr. Lebryk. So I think this is really one of the critical 
underpinnings about successful implementation of the act. If we 
ensure that the agencies own this data and use it, they will 
make the changes that they need to make. If it is a compliance 
effort in which we're simply doing this for the sake of 
actually checking a box, it won't be successful. If it is a 
Treasury-centric view, it won't be successful. If it is a 
Treasury-OMB-centric view, it won't be successful. It really 
has to be owned by the CFO and by the agency. Because that's 
where the real decisions where the data has value.
    If you're a CFO and you're looking to do a data call, which 
we ask them to do all the time, and it's very expensive and 
very difficult to do that, and they have difficult times doing 
that, if we can give the business proposition, the value 
proposition of saying if you have better access to that data, 
you can do that much more efficiently. You can use that 
information to make better decisions. You can inform the public 
better about the value you're providing with your services. And 
that's why I think we have been really very keen on engaging 
the agencies so when we have this implementation structure you 
see all of the interagency councils that are part of the 
advisory group that's there.
    And we're asking those members not only to represent their 
communities but also use their expertise as senior leaders 
within their organization to bring that wisdom to bear about 
how to best implement the act.
    And so when we had this discussion about data-centric and 
agency-centric, it resonates with them a lot.
    Mrs. Maloney. Now as I understand by 2017, you're going to 
have data elements standards have to be published. Right? And 
this is going to be agency-wide throughout government, but 
they're not required internally to use these standards? Why 
not, why wouldn't we require them to use it? Will every agency, 
and where will these standards come from? Will Treasury be the 
final person that puts out these standards?
    Mr. Lebryk. So OMB is responsible for the data standard-
setting process, so maybe I should make sure they speak. But I 
will say a couple thing on that. One is we are leveraging, as 
was referenced earlier, both the procurement community and the 
grants community have been doing some preliminary work on this 
issue about those data standards.
    We recently put out on something called GitHub into the 
public demain so that the public can see what those standards 
are, and we put out roughly I think 50 or 60 of those in the 
public domain for them to take a look at. And that's an open 
forum for people to comment on.
    We're also then going back into the communities and making 
sure that we get feedback about whether we have the right data 
standards and whether they're usable and the like.
    Mrs. Maloney. But why in the world would we not require the 
agencies to use the same standards that we're trying to make 
agencies--I guess, that's one question, but also you had 
another important point in one of your comments. You said that 
if we had these standards, then agencies and workers and 
everyone would be able to use analytics more and this would 
overall help government. And how would shifting the focus to 
using analytics help agencies in saving taxpayers' dollars?
    Mr. Mader. Let me start, and maybe Dave wants to add, but 
with regard to the use of the standards, they are not optional. 
These are going to be mandatory standards that will be used 
across government. Because I think, as Mr. Dodaro testified, 
the problem is that the way we have these diverse systems now, 
people chose to interpret and define some of these standards 
their own particular way, whether they were in the acquisition 
community or the grants community.
    And what we're doing now as part of this standardization 
under the DATA Act is we will have uniform definitions that 
will be used across government consistently, because that's the 
only way we're going to be able to pull the data out of these 
disparate data bases and bring them together, so it's not 
optional. It's going to be mandatory.
    Mrs. Maloney. Well, this is--this is really major. I think 
this is a major improvement in Government, and I applaud 
everyone who's working on it, but would you comment a little 
further, Mr. Lebryk, on how analytics are going to help us 
manage us better, being able to use this?
    Mr. Lebryk. So this really gets to kind of the power of 
data. Right now when we're doing things like benchmarking 
across government, you know, what is the Government paying for 
a cell phone plan in one agency versus another, what's it 
paying for pencils, what's the things it's doing.
    Mrs. Maloney. Yes, this is great.
    Mr. Lebryk. What's also really important, which is if the 
public and industry sees that information when they bid on 
government work, it will drive the costs down.
    So there's a real powerful value there for both us 
internally understanding what our costs are in benchmarking, 
but also in terms of letting the industry know about what's 
going on so when they bid for government work, it drives those 
costs down. Significant savings can be--can be found in that.
    Mrs. Maloney. But could you give an example of an agency 
that's working to use funding data to drive decisionmaking and 
to better ways for our government, a specific example?
    Mr. Lebryk. Well, I think if I were to sort of use an 
example of it cuts across both external and internal, I would 
use something like the--like NOAA, which is putting information 
out there right now. And there was an article in the Wall 
Street Journal several months back about how on the Weather 
Channel right now, someone is using that information to decide 
what ads are run in different markets, so that you actually 
then have the ability to target what you're doing based on 
something like the weather, and that actually improves things 
significantly.
    So I think that as it relates to external uses of data, 
there are a number of examples. Internally we have been going 
through an example about, you know, what are we paying for 
human resources within government; and looking across agencies? 
And while the data isn't real good yet, it is making us ask 
lots of questions. A high number may not necessarily be bad if 
you're saying you're investing in your work force.
    So if you're spending a lot on human capital, it may be the 
exact right thing you should be doing, because you're giving 
the training and the expertise to have a more qualified work 
force. On the other hand, if you're paying a lot for 
transactions, you may be saying, why are we spending so much 
money on transactions and not enough on sort of real added 
value things?
    So the initiative at OMB as we lead right now in 
benchmarking is actually trying to derive that thinking 
governmentwide about how analytics can really help improve 
government.
    Mrs. Maloney. This is a really important improvement, and I 
congratulate all of you.
    And my time has expired. Thank you.
    Chairman Issa. As we go to the gentleman from 
Massachusetts, if I could have just 10 seconds.
    Mr. Lebryk, you said something very important and I don't 
want it to fail to be understood. If we can make the true 
purchase price not by which vendor we bought it, but the true 
purchase price, we do create an amount that we want to pay the 
same or less than in the future, and that's almost always 
opaque to the competing market and even to the public, so I 
appreciate the fact that you see that as a benefit.
    Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    Mr. Chairman, just in regards to your service here on the 
committee, I know that Teddy Roosevelt had a great quote. He 
said, ``far and away, the best prize that life offers us is the 
ability to work hard at work that is worth doing.'' And I know 
we have had--we've had differences of opinion and conclusion 
over the years that you've served this committee, and that's 
understandable, given the variety of issues that we've had come 
up here.
    But I have to say that you have--in your time, you have 
taken this work seriously, you have worked hard at it, and, you 
know, that's to your credit. You have taken your work 
seriously. You worked hard at it. We always didn't arrive at 
the same conclusion, but I still have enormous respect for the 
way you approached your work, the professional manner in which 
you conducted yourself and led this committee, sometimes us 
coming along unwillingly, sometimes otherwise, but I think you 
did good work on behalf of the taxpayer and the American 
citizens, and I congratulate you on your service.
    Chairman Issa. I thank you. And I leave postal reform in 
your good hands.
    Mr. Lynch. Yes. Don't you threaten me.
    And also your staff. Your staff has done a wonderful job as 
well, and I know you've had an assortment of staffers over the 
years, but a very, very--very strong staff and a pleasure to 
work with them.
    I want to go back to the Ranking Member's comments. And 
thank you each for your willingness to work with the committee 
and thank you for your service to our country.
    I want to go back to what the Ranking Member was talking 
about, about the DUNS numbers, and I think he hit on something 
that really needs--we need to drill down on that a little bit.
    You know, it's stunning, Mr. Dodaro, that we had over 300 
programs that didn't report on USA.gov totaling $619 billion. 
That's amazing that these companies and programs did not report 
their spending to the American people, and that troubles me 
greatly.
    I was wondering, are there some repeat offenders in that 
group? Is that spread across government? I know that DOD is 
responsible for about 50 percent of our discretionary budget, 
but are there some groups that are more frequent offenders of 
the non-reporting?
    Mr. Dodaro. Yes. Of the $619 billion that was not reported, 
a large share of it came in healthcare spending, actually, in 
the Medicare program, which was supposed to report aggregate 
amounts spent by counties across the country.
    And in other areas, the Veterans Administration was not 
reporting a lot of its spending as well in healthcare area and 
other areas, and then the rest of it was really spread around 
to a wide variety of agencies.
    You know, hopefully we've asked OMB to clarify the 
guidance, and I know they're in the process of doing that, 
which will help ensure we don't have recurring repeats of this 
in the future, but that's what we found for that year.
    Mr. Lynch. OK. Mr. Mader, I know we had a--that you had a 
joint town hall meeting with OMB and Treasury regarding the 
DATA Act, and I know there were a lot of these, you know, open 
government groups that were there. They talked about the DUNS 
number issue. And so the DUNS number is a unique identifier for 
any entity that does business with the government. Right?
    Mr. Mader. Yes, sir.
    Mr. Lynch. OK. So--and the Government pays Dun & Bradstreet 
for the ability to use data associated with the DUNS number. Is 
that correct?
    Mr. Mader. That's correct.
    Mr. Lynch. And according to my records, the current 
contract with Dun & Bradstreet is for 8 years and at a cost of 
$154 million. Is that about right?
    Mr. Mader. Mr. Congressman, that particular area is not 
within my portfolio.
    Mr. Lynch. OK.
    Mr. Mader. It's actually being handled by another one of my 
colleagues at OMB.
    Mr. Lynch. OK. Mr. Dodaro, in 2012 GAO issued a report 
finding, they quote--this is a quote: ``A monopoly for Dun & 
Bradstreet has been created as a result of a specific reference 
in regulations governing contracting.'' Is that correct?
    Mr. Dodaro. Yes.
    Mr. Lynch. Yes. So--so right now, basically what we're 
doing is we pay--we pay Dun & Bradstreet for our own 
information. Is that right?
    Mr. Dodaro. Well, we pay for the use of their number, which 
we're tied to.
    Mr. Lynch. Yes.
    Mr. Dodaro. And that was the concern we raised, is that it 
made the Government so dependent on it, and you really had 
disadvantages, because the cost kept increasing. The figures 
you cited were right, they were out of our report on the costs, 
but it's increased considerably over time. And also the company 
in this case can put limitations on the Government's use of the 
numbers, and actually that concerns us as well.
    Mr. Lynch. Yes. That's my--that's the point I'm getting to. 
I know that in a recent example, the RAT Board that the 
chairman referenced, decided to terminate its contract with Dun 
& Bradstreet because it would have cost taxpayers between 
$900,000 and $1.4 million for just 1 year of data, of our own 
data, getting back from Dun & Bradstreet, and the Recovery 
Board was paying for the right to display on its Website 
existing data about spending under the Recovery Act.
    And, again, you anticipated my question. Would it concern 
you if the Government's use of data to identify waste, fraud 
and abuse is limited by Dun & Bradstreet?
    Mr. Dodaro. Yes. The Government--our basic point here was 
the Government needs options. And----
    Mr. Lynch. Right.
    Mr. Dodaro. And it has the ability to create this 
themselves or at least have options so you're not dependent 
just on one source.
    Mr. Lynch. Right. So, so my question for Mr. Mader and Mr. 
Lebryk, can we get away from that? Are we working on that, to 
get away from this limitation that Dun & Bradstreet has for us 
to use information that's helping us, you know, to hopefully 
run the Government in a more efficient manner?
    Mr. Mader. Congressman, I know that this other office 
within OMB, the Office of Procurement Policy, is working that 
issue with the General Services Administration, and I think 
they've had some correspondence with the committee on that 
recently.
    Mr. Lynch. Yes. That would be a terrible bottleneck, you 
know, if we had this--you know, this limitation at the whim of 
Dun & Bradstreet that they would be able to withhold 
information or limit information, its availability, to those 
who would need to use it because of this contract. It just 
seems extortive in a sense, so--in an 8-year contract, so 
that's not wise.
    I think we need to rethink what we're doing there. We 
can't--you're creating a bottleneck in the system by allowing 
it to control all that data. So it's useless if we can't access 
it. I'm just raising that concern now, because I don't--you 
know, we've got some change going on here, some transition, and 
I don't want that feature in the new iteration of this Website.
    Thank you.
    I yield back Mr. Chairman.
    Chairman Issa. I thank you.
    I thank you for pointing out that we should always have 
competition and not have a sole source, particularly for 
something that is so key to the tracking of metadata.
    And with that, we go to my partner in crime on this piece 
of legislation, Mr. Connolly.
    Mr. Connolly. Thank you so much, Mr. Chairman.
    And thank you to the panel for being here today; very 
thoughtful conversation.
    Mr. Dodaro, GAO identified a lack of information about 
investments as a major challenge in eliminating wasteful 
spending. Correct?
    Mr. Dodaro. Yes.
    Mr. Connolly. And in the 2014 report on duplicative and 
wasteful spending, you identified IT investments, which 
concerned both the chairman and myself particularly, at the 
Department of Defense and found 31 potentially duplicative 
investments accounting for at least $1.2 billion in costs at 
DOD between 2007 and 2012. Is that correct?
    Mr. Dodaro. Yes.
    Mr. Connolly. Is there something about the Pentagon that 
seems particularly problematic when it comes to transparency, 
accountability, waste, fraud and abuse, efficiency, and even 
some sense of, we need to get in line like everybody else?
    Mr. Dodaro. Yes. Well, as you know, with this committee's 
sponsorship over years, we keep a list of areas that are at 
risk, highest risk across the Government, of fraud, waste, 
abuse, and mismanagement. And of the 30 areas that we currently 
have on the list, at least six or seven are DOD business 
systems, contract management, financial management, IT 
management over at the department. That's a large, 
decentralized operation, many systems, prone to reinventing 
things within each service.
    So it's been an area, given our statutory requirement to 
look at overlap and duplication and fragmentations for our 
government, has been one of our, you know, key areas that we've 
been looking at. So they are prone to have these type of 
problems.
    Mr. Connolly. Mr. Mader, is there--you talked, and it was 
very welcome to me, that the DATA Act might help serve to break 
down stovepipes, because stovepipes often--they might start out 
with good reason, but they often lead to inefficiency and lack 
of ability to sort of collaborate and cooperate and learn from 
others.
    Can we take that same principle and help rein in the 
Pentagon in terms of its practices, which seem, frankly, at 
variance with the rest of the Government?
    Mr. Mader. I think some of the principles that were going 
to apply governmentwide for the DATA Act should certainly--
would be applicable to DOD. And I think, as Mr. Dodaro Stated, 
you know, that is a very large, complex, worldwide 
organization. And, you know, stovepipes grow up in any 
organization all the time. I think if some of the very creative 
and, I think, leading edge concepts that Treasury is exploring 
on how we're going to extract data from these various 
stovepipes, that concept could easily be applied as well----
    Mr. Connolly. Well----
    Mr. Mader [continuing]. To DOD.
    Mr. Connolly [continuing]. I thought I heard you say 
earlier that this was not going to be something that was 
voluntary; this was going to be mandatory compliance with the 
DATA Act. Is that correct?
    Mr. Mader. Oh, data standards for sure, yes, sir.
    Mr. Connolly. Yes. And that applies to the Pentagon?
    Mr. Mader. Absolutely.
    Mr. Connolly. OK. Well, that's reassuring.
    Mr. Lebryk, you talked about the potentiality with the DATA 
Act of actually saving money, because with that transparency, 
with people actually seeing what it costs, that idea spreads 
and we kind of drive ourselves down to, oh, I can get it for 
that instead of that.
    Do you want to elaborate a little bit more on that, because 
that's also a great potential and a very welcome message here 
on the Hill and I think to taxpayers?
    Mr. Lebryk. Sure, I think there's a couple of--and I would 
even add to it, which is one of the visions for the 
Administration is to move to fewer core financial systems in a 
shared services model. So we at the Bureau of Treasury run 
something called ARC. It's a franchise fund, and we provide 
accounting services to different agencies.
    When we recently upgraded the core financial system for 40 
of our customers, we did that for $300,000 per customer, and 
that is a remarkable number relative to what many agencies are 
doing with respect to either upgrading systems. And that the 
power of that is that we have the expertise with that financial 
system. We understand the vendor. We understand the underlying 
accounting system, and that when we then roll it out, we're 
doing it in an expert way; and one of the things the government 
doesn't do very well across government is manage projects.
    And so if you have an entity that's very good at managing 
projects and managing implementation, for those 40 customers 
they're not really worried about that. And importantly, the CFO 
of those agencies and the CFO when I was the Bureau head spent 
very little of her time on systems issues. Now I've talked to 
some CFOs who spend 25 to 50 percent of their time on systems 
issues, not on being a CFO.
    And so when you move toward this vision the Administration 
has of moving to fewer core financial systems and having the 
ability to get the data more easily, there are significant 
opportunities for savings across government and improving the 
way government operates.
    So I think it's not just some of the things I talked about, 
benchmarking and the ability to have fewer people doing data 
calls because you can do it more easily, but it's also about 
the infrastructure of government being more efficient. And as I 
said, we have seen within my own portfolio significant savings 
and opportunities by moving to this kind of model.
    Mr. Connolly. Yes, certainly the chairman and I have tried 
to address some of that in IT investments and procurement 
because we have found incredible inefficiencies, and we're 
hopeful that the legislation where Congress I hope is about to 
approve will help streamline that process and make it more 
efficient, and I know we can count on Mr. Dodaro to monitor the 
implementation of that and to give new power to CIOs to make 
more efficient decisions and to try to de-bureaucratize some of 
the decisionmaking, so I hope that happens in the IT sector.
    But I would just end by commending all three of you to the 
notion that we can't continue to let the Pentagon insist it is 
unique; everything there is sui generis, and it should not be 
subject to these bothersome meddlesome procedures and 
accounting processes and the like. You know, the accounting of 
a dollar is the accounting of a dollar, whether it's for 
defense or whether it's for some other commodity or service.
    And the Pentagon can benefit from the efficiencies we're 
talking about here with the DATA Act and other measures and, in 
fact, needs to. In a time of tight resources, it's incumbent 
upon agencies like the Pentagon to identify the efficiencies 
we're talking about, the savings we're talking about, to 
stretch the dollars they do get appropriated.
    And so I hope your work will extend to the Pentagon because 
I think they can really benefit from it, and that's where the 
dollars are. You know, if we exempt them or give them a pass, 
then a lot of our good work is not as widespread as it could be 
and will not have the maximum benefit that was intended I think 
here and by you alls good efforts. So I commend that thought to 
you.
    Thank you so much for being here today.
    Chairman Issa. Thank you.
    The gentleman from Georgia.
    Mr. Woodall. Thank you, Mr. Chairman.
    I just wanted to say thank you to Gene here at the last 
hearing of the year at his topic. It always makes me feel 
better about where we're headed and where we might be able to 
find some common ground to making a difference. I was with some 
of my freshman colleagues were here getting involved, and they 
were asking why can't we just implement the GAO duplication 
report? Why can't we just start there? Isn't that going to be 
the common ground that brings folks together? I just want you 
to know how much your work means to us, not just us who are 
here, but those new folks who will be coming in, in January.
    With that, Mr. Chairman, I'd like to yield the balance of 
my time to you.
    Chairman Issa. I thank you.
    Mr. Dodaro, I want to echo Mr. Woodall's comments. I don't 
think I heard you remind us that for every dollar we invest in 
GAO, we get about a $100 return.
    Mr. Dodaro. That's correct, Mr. Chairman. Last year. 
Implementation of our recommendations resulted in over $54 
billion in financial benefits to the Government, and that's 
been fairly consistent over the years; so I appreciate the 
recognition, Congressman Woodall.
    Chairman Issa. How large is your budget?
    Mr. Dodaro. Our budget is for this past year about $500 
million.
    Chairman Issa. So a 10 percent increase, $50 million, would 
give us about a $500 billion return. Right?
    Mr. Dodaro. We would sure strive to make that happen.
    Chairman Issa. OK. I just want to figure out how we can 
shave 5 billion from the budget. It sounds like it's a simple 
$50 million ledge branch appropriations. I want to close----
    Ms. Norton. Mr. Chairman, could I just----
    Chairman Issa. Gentlelady.
    Ms. Norton. This has been such a good and hopeful and 
encouraging hearing. I just want to caution us all to keep the 
usual skepticism of this committee, remember what a trial it 
was to get the Affordable Health Care Act across the country 
on-line because nobody had ever done it before? The Federal 
Government did it quite badly at first but ended it much 
better.
    Chairman Issa. Thank God FITARA is being signed by the 
President as we speak practically. It's going to take care of 
that.
    Ms. Norton. Well, but think about this, now we're asking 
every agency in the Federal Government to go on the same line. 
If ever we should have a note of caution, even skepticism, as 
the note we sound as we close this hearing, surely seeing what 
it took to get one agency to go on-line and then in the States 
just one agency to go on-line should caution us to do this very 
slowly with pilots in the agency first.
    Because we're asking the entire Federal Government to do 
what we have already seen even one agency, a very large agency 
among those that have to do this, found it very difficult to do 
and to get it all lined up so that it all works smoothly.
    Thank you, Mr. Chairman.
    Chairman Issa. I thank the gentlelady.
    To that point, Mr. Dodaro, is the DATA Act truly new, or 
are we simply saying this time we really mean it? And I say 
that because for decades haven't we told agencies they are to 
find interoperable systems. They are to make their reporting 
consistent with best practices. They are to provide--eliminate 
redundancy; and, in fact, they are to replace outdated 
programs, some of them running on Cobol and older systems.
    So in a sense, isn't the DATA Act simply a road map to a 
transition that has been ordered by people who predate my 14 
years in Congress?
    Mr. Dodaro. Yes, definitely. And I think, and I've said 
this here and in the Senate testifying on this, without the 
proper legislative underpinning and consistent oversight, this 
won't happen; and I agree with the skepticism Ms. Norton is 
saying, and, but you're right in the sense that this provides 
the really, the absolute requirements in law that people have 
to follow, and there have been many attempts in the past to try 
to achieve some of these aspirations.
    There's unique aspects of the DATA Act in terms of machine 
readable data and other things that are very important. So I 
don't want to say everything in there has been tried before. 
There are new features, but many of the fundamentals of it, of 
accurate reporting, complete reporting and standardized 
reporting, have been tried before with not very good effect.
    So I'm hopeful this time we'll get it right; and with the 
legislation I commend this committee again, I think there's 
higher prospects that we'll get it right this time in the 
Government.
    Chairman Issa. Mr. Mader, I saw your head shaking once 
again, and I appreciate when it does that.
    You've been in and out of government, and you've seen it 
and you are at the epicenter. OMB has been constantly saying to 
these agencies, you've got to give us stuff we can use. You've 
got to be accountable.
    Is this, in fact, saying here is the beginning, if you 
will, of a road map, and I know you're going to continue 
designing the details of that road map, a road map of how you 
will achieve minimum standards, not best practices, but minimum 
standards that will allow you to manage the Federal Government 
better?
    Mr. Mader. I think, Mr. Chairman, one of the things I've 
learned in the private sector, and you mentioned it in your 
opening Statement, is what as a private sector company what's 
expected, and you made a comment that I agree with----
    Chairman Issa. If you can't measure it, it doesn't get 
done.
    Mr. Mader. If you can't measure it, it doesn't get done.
    And I think this time with the legislation, with the 
oversight both GAO, the IGs, and the Congress, and I think the 
commitment of both the Treasury and the OMB, we can be 
successful over time. As Ms. Norton said, this--you know, I 
don't think we should minimize the level of effort that it's 
going to take to cross the complexity of this government to get 
people to agree on standards and then actually define the data 
against those standards and bring it all together.
    I think as we have all testified, this is good for the 
executive branch; it's good for the legislative branch, and 
it's certainly good for the American public. It's just going to 
take us time and, you know, keep focused, and my commitment to 
the committee and to you is in, you know, in the two-plus years 
that I'm going to be here, this is one of my primary areas of 
focus.
    Chairman Issa. Thank you.
    Mr. Lebryk.
    Mr. Lebryk. And I would agree with that.
    This is really very much of a high priority for me as well. 
I think the reference that you made to pilots is really 
important in that we do have agencies that are at different 
phases along the way, and for us to show success and show the 
value is going to lead others to want to get on board more 
quickly.
    I am very much of an eternal optimist around this. And I 
think that it's important for the leadership of a program like 
this to be very optimistic and sort of be out there and saying 
we need to be doing these things. But I'm also a realist and 
been in government long enough to know that this is tough 
stuff, and to have people think about something differently and 
approach it differently in part because technology has helped 
us here, there's a different way that we apply technology than 
we have in the past, but that's not something that every agency 
sees immediately and embraces immediately. So we're going to 
have to show successes. We're going to have to show people it 
can work; it does work. And I think that is going to lead to 
others saying, yes, this is something we very much want to 
embrace.
    Again, I think the good news is really we have not seen 
anyone, as Dave and I have gone out and spoke to them, who 
don't understand the importance of this, that don't understand 
the potential value. They do see difficulties about how they're 
going to get from point A to point B, given the complexities of 
their systems, given funding issues that may be out there, that 
some are more reticent on this than others.
    Chairman Issa. Thank you, and I'm going to recognize the 
ranking member for close.
    But I'll just say something from my private sector time. 
When you've got something that's hard to do, and as you say you 
need buy in, it has to belong to them, you also need a carrot. 
So I would hope that as you're developing the standards, and 
particularly I think OMB has this responsibility, you would 
embrace two things that I know you dealt with in the private 
sector.
    First of all, if somebody doesn't say here's best 
practices, then people will look at this as what is the minimum 
to get by; and, Gene, I know you will be saying you didn't hit 
the minimum to most of the people who thought they hit the 
minimum, because if you shoot for the minimum, you'll come up 
short. If you shoot for the stars, you'll usually at least pass 
the minimum.
    And, second, nowhere in this legislation does it actually 
call for, if you will, an award. But I would strongly suggest 
that as we implement this, as people are asked to deliver you 
rich metadata-usable information, not just machine readable, 
but rich in how far it drills down, that in addition to the 
best practices you may develop, that some form of an award 
would, in fact, allow people just to compete annually for how 
do we give the American people and our IGs and the GAO and our 
own management team richer and richer and more easily readable 
material.
    And I say that because I think there's two parts to it. 
There is the Federal work force that so much wants to be seen 
as doing something that's worth being rewarded and awarded. But 
I also think there are a number of well-known contractors who 
work side-by-side who very much think that those awards are how 
they go in and sell their software, and so I can see various 
names--and I won't mention any of them here but we all know 
them. They're almost all large--they would be certainly active 
in wanting to make sure that their clients within government 
are the ones that win that award, and I think that gets a buy-
in at a level of the Federal work force and the contract 
community that I'm hoping with your leadership, that two-plus 
years you have left or perhaps more, you'll be able to 
implement, and so I'd just ask you to consider that. Thank you.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I want to--I thank all of you for being here today. Your 
testimony has been very helpful.
    You know, I--listening to all of it, and I go back to 
something that I talked to my staff about constantly, and that 
is, being effective and efficient. Two simple words, effective 
and efficient. The idea that we could not be counting and then 
having that information put out there, to me, is like 
basketball. I mean, this is basic stuff. You've got to be able 
to pass and dribble to play ball, and this, to me, is basic, 
and I know it's--I know it's difficult. I know it may be 
complicated, but I think if the American people knew the 
position that we've been in and the way we've been doing 
things, they'd be very upset because they don't handle their 
budgets like that.
    Because they know if they handled their budgets and if they 
had such little information, it would be impossible to take 
care of their households. So I think we've come a long way, but 
the implementation is so important. And going back to the 
concerns of Ms. Norton. You know, funding is significant, and I 
realize that there is going to be some issues there, and we're 
not--we can't kid ourselves about that.
    But I also want us to be frank with what we can get done 
and in the time that we can do it. I think the American people 
get frustrated sometimes when I set--like the example that I 
gave a little earlier when I was talking about Katrina, I think 
about that all the time because I--because I realize that we 
constantly say things are going to work, and then when they 
don't work, then the American people say, oh, God, my tax 
dollars are spent and they're not being spent properly.
    So I think it's so important that we make it work and make 
it work well. But Mr. Dodaro, I go back to what I asked you 
before, you know, this whole thing of information. I'm telling 
you, I don't--the idea that the agencies are not providing the 
kind of information that needs to be provided in the way it 
needs provided, in the time it needs to be provided, to me, to 
me that undercuts all of this, and it goes back to what I said 
about effectiveness and efficiencies.
    So I think we--we now have a framework. I'm an optimist, 
too, I really am, but at the same time, I think we have to make 
sure that we put every single thing in this process, use every 
tool that we have to make it work and look for the gaps. And 
that's the biggest gap, that information piece. That's what 
this is all about, and if we don't, then I think it goes 
against our effectiveness and efficiency.
    So again, I want to thank you all very much. I want to go 
back to the usage example. I want--Mr. Dodaro, I am looking 
forward to getting that information because I think it's 
important that we--you know, we have contractors who are doing 
it right, and I agree with the chairman. I mean, there needs to 
be a balanced approach, but I want to make sure that--that--
that we have--that the information so that we will know of 
those agencies, I mean those companies that may be not always 
acting at the best--highest level of integrity when dealing 
with the U.S. Government, that's important.
    And so we--I think we have to make sure that we--I don't 
know what this tool is. I want to see it, and I'm curious as to 
whether it addresses all of the issues with regard to 
subsidiaries, but I think it's so very, very important, and so 
I don't know how soon you're going to get me that information. 
How soon do you think you can get that to us?
    Mr. Dodaro. I'll have it by next week.
    Mr. Cummings. I can't hear you, sir.
    Mr. Dodaro. I'm sorry. You'll have it by next week.
    Mr. Cummings. Oh, very well, very well.
    Thank you very much.
    Chairman Issa. Thank you.
    I want to thank all of you for your valuable insight. I 
will additionally thank all of you, particularly OMB and 
Treasury, for your promises. We don't often get answers that we 
think we can make a goal, we believe we can do this, and 
particularly, Mr. Lebryk, your insight into the need for buy-in 
by the actual agencies. I think that was valuable to all the 
members here.
    And although I will--I will not be here in the next 
Congress, I'll be literally next door. I do look forward to 
following the hearings as I'm sure all of you will be back. 
Thank you, and we stand adjourned.
    [Whereupon, at 11:45 a.m., the committee was adjourned.]

                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
